No. 20-1425

lin the 'upreme Court of the ainittb 6tatto
C.H. ROBINSON WORLDWIDE, INC.,

Petitioner,
V
ALLEN MILLER,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF ANICUS CURIAE—DRI—THE VOICE OF
THE DEFENSE BAR IN SUPPORT OF PETITIONER
MARY MASSARON
EMILY COUGHLIN
Counsel of Record
DRI—THE VOICE OF THE
JOSEPHINE DELORENZO
DEFENSE BAR
'PLUNKETT COONEY
222 South Riverside
38505 Woodward Avenue Plaza Suite 1870
Chicago, IL 60606
Suite 100
Bloomfield Hills, MI 48304 (312)795-1101
ecoughlingcoughlinbetke.com
(313) 983-4801
mmassarongplunkettcooney.com
jdelorenzelunkettcooney.com

Counsel for Amicus Curiae
DRI—The Voice of the Defense Bar

QUESTION PRESENTED
Whether a common-law negligence claim against a
freight broker is preempted because it does not
constitute an exercise of the "safety regulatory
authority of a State with respect to motor vehicles"
within the meaning of the Federal Aviation
Administration Authorization Act's safety exception?

TABLE OF CONTENTS
Page(s)
QUESTION PRESENTED
INDEX OF AUTHORITIES

iii

STATEMENT OF INTEREST

1

SUMMARY OF ARGUMENT

4

ARGUMENT

6

The Ninth Circuit's Decision Will Enable
Plaintiffs to Search For Remote Deep•Pocket
Defendants Who Have Little or No Ability to
Prevent Trucking Accidents
6
Congress Intended to Preempt States from
Imposing Additional Regulations On Brokers 8
The Narrow Exception for State Safety
Regulations Does Not Encompass Negligent
Hiring Claims
15
CONCLUSION

19

ii

INDEX OF AUTHORITIES
Page(s)
Cases
City of Columbus v. Ours Garage &
Wrecker Serv., Inc.,
536 U.S. 424 (2002)
16
Creagan v. Wal-Mart Transportation, LLC,
354 F. Supp. 3d 808, 814 (N.D. Ohio 2018)
7, 18
Dan's City Used Cars, Inc. v. Pelkey,
569 U.S. 251 (2013)
9
Food Mktg. Inst. v. Argus Leader Media,
139 S. Ct. 2356 (2019)
16
Jackson v. Low Constr. Grp., LLC,
No. 2:19-CV-130-KS-MTP, 2021 WL 1030995,
at *2 (S.D. Miss. Mar. 17, 2021)
14
Kisner v. State Farm Fire & Cas. Co.,
No. 5:19-CV-194, 2020 WL 6947902,
at *1 (N.D.W. Va. Oct. 28, 2020)
14
Krauss v. IRIS USA, Inc.,
No. CV 17-778, 2018 WL 2063839,
at *5 (E.D. Pa. May 3, 2018)
11
Loyd v. Salazar,
416 F. Supp. 3d 1290 (W.D. Okla. 2019)
16, 17
Rowe v. New Hampshire Motor Transp. Ass'n,
552 U.S. 364 (2008)
2, 4, 9, 15
Volkova v. C.H. Robinson Co.,
No. 16 C 1883, 2018 WL 741441,
at *3 (N.D. Ill. Feb. 7, 2018)
12
Westbrook v. Gen. Tire & Rubber Co.,
754 F.2d 1233 (5th Cir. 1985)
14
Ying Ye v. Glob. Sunrise, Inc.,
No. 1:18-CV-01961, 2020 WL 1042047,
at *4 (N.D. Ill. Mar. 4, 2020)
8, 11, 18

Statutes
39 U.S.C. § 13092
49 C.F.R. § 387.9
49 U.S.C. § 13102(16)
49 U.S.C. § 13102(2)
49 U.S.C. § 13906(a)(1)
49 U.S.C. § 13906(b)
49 U.S.C. § 14501(c)(1)
49 U.S.C. § 14501(c)(2)(A)
49 U.S.C. § 31144 (a)(2)

10
8
17
6, 9
7
7
9, 16, 18
passim
10

Rules
49 C.F.R. § 385.1(a)
49 C.F.R. § 385.13(a)
49 C.F.R. § 385.5
49 C.F.R. § 385.7, 385.9
49 C.F.R. § 385.9
49 C.F.R. § 387.7

10
11
10, 11
11
11
7

Other Authorities
A.S. Brar, Freight Broker Training: Guide to
Coordinating Commercial Transport,
TruckFreighter.com (2018)
6
Clement Harrison, Freight Broker and Trucking
Business Start-Up Guide (2021-2022)
7
Fixing America's Surface Transportation Act, Pub.
L. 114-94, 129 Stat. 1312 (2015)
13, 14
Jerry J. Sallings & Courtney C. McLarty, Three
Approaches The Front Line in the Defense of
Broker Liability Claims, 56 No. 12 DRI For Def 60
(2014)
13

iv

STATEMENT OF INTEREST'
Amicus curiae DRI—the Voice of the Defense
Bar, is a 22,500-member international association of
defense lawyers who represent individuals,
corporations, insurance carriers, and local
governments involved in civil litigation. DRI has long
been a voice for a fair and just system of civil
litigation, seeking to ensure that it operates to
effectively, expeditiously, and economically resolve
disputes for litigants. To that end, DRI participates
as amicus curiae in cases that raise issues of
importance to its membership and to the judicial
system. This is such a case.
DRI's interest in this case, which arises under
the Federal Aviation Administration Authorization
Act (FAAAA), stems from its members' need to advise
their broker clients on standards for selecting
available motor carriers to transport property. DRI
members also defend these clients when they face
lawsuits. The Ninth Circuit's decision recognizes that
a negligent selection claim would otherwise be
preempted because it "seeks to interfere at the point
at which" a broker arranges for transportation by a
motor carrier, and therefore, such a claim is directly
connected with broker services. Pet. App. at 10a. The
court of appeals nevertheless held that a negligent
1 Pursuant

to Rule 37.6, amicus certifies that no counsel for a
party authored this brief in whole or in part and that no person
or entity, other than amicus, its members, or its counsel, has
made a monetary contribution to the preparation or submission
of this brief. The parties have obtained consent to the filing of
amicus briefs pursuant to Rule 37 and Petitioner and
Respondent were given timely notice.

1

selection claim falls within the safety regulatory
exception, which provides that the FAAAA "shall not
restrict the safety regulatory authority of a State with
respect to motor vehicles." 49 U.S.C. § 14501(c)(2)(A).
The result of the Ninth Circuit's decision is a
patchwork of "state-service determining laws and
regulations," Rowe v. New Hampshire Motor Transp.
Ass'n, 552 U.S. 364, 373 (2008), subjecting brokers to
common law standards of "reasonableness" in all 50
states, contrary to the purpose of the act.
If this decision is allowed to stand, brokers will
no longer be able to rely on federal agency standards
for choosing a carrier, i.e., they will be required to go
beyond choosing a carrier that has been allowed to
operate by the Department of Transportation and
obtained an adequate safety rating from the Federal
Motor Carrier Safety Administration.
The Ninth Circuit's decision creates infinite
possibilities with respect to what a jury might
consider to be a reasonable effort on the part of a
broker and this will result in infinite challenges to
DRI members and their broker clients. The process
for selecting a carrier will now be subject to 50
different common law negligence standards, any
combination of which could apply to any given
delivery route. What is considered reasonable conduct
on the part of a broker in selecting a carrier in one
jurisdiction could subject it to liability in another. In
addition, because negligence standards of
reasonableness are driven by incremental
retrospective rulings, lawyers who represent brokers
and their broker clients will be hard-pressed to know
in advance what the requirements are at any given
2

time. As several of the district courts that have
considered this issue have recognized, such a regime
has a significant economic impact on the core services
of brokers, a result Congress intended to prevent
through the FAAAA.
While the Ninth Circuit is the first court of
appeals to speak on this issue, district courts have
issued conflicting holdings. DRI urges this Court to
grant certiorari and reverse the Ninth Circuit's
decision.

3

SUMMARY OF ARGUMENT
This Court should grant certiorari and reverse
the Ninth Circuit's decision. If allowed to stand, the
decision will enable plaintiffs to expand the available
universe of defendants in the search for deep pockets,
given that motor carriers are typically small
businesses. But brokers, who act as middlemen
connecting shippers and carriers, have no role in
hiring or supervising drivers or determining their
routes, and thus are far removed from any ability to
prevent an accident. Indeed, Congress intended that
motor carriers be subject to liability because they are
required to have adequate liability insurance — but
there is no such requirement for brokers.
As even the Ninth Circuit recognized, a
negligent selection claim against a broker is one that
Congress intended to preempt by enacting the
FAAAA because it is directly related to a broker's core
services. The purpose of the FAAAA is to prevent
states from implementing various requirements that
result in "a patchwork of state service-determining
laws, rules, and regulations," because such a scenario
"is inconsistent with Congress' major legislative effort
to leave such decisions, where federally unregulated,
to the competitive marketplace." Rowe v. New
Hampshire Motor Transp. Ass'n, 552 U.S. 364, 373
(2008).
Additionally, the fact that Congress has tasked
the Secretary of Transportation with maintaining
safety standards for motor carriers counsels against
allowing negligent selection claims and imposing a
heightened standard of care for brokers — again, the
4

entity farthest removed from any accident — when
selecting a motor carrier.
The statutory framework contemplates that
brokers will rely on the federal agency's ratings so
that brokers can focus on properly providing their
core services. Extending to brokers a duty to
independently evaluate carriers — a duty that
requires the broker to replicate the steps taken by the
agency or, more likely, go beyond those steps — adds a
layer of unnecessary costs to the system. Moreover,
the information to further vet carriers is difficult, if
not impossible, for brokers to find.
Despite recognizing that a negligent selection
claim is one that the act preempts, the Ninth Circuit
held that the claim falls within the safety regulatory
exception, which provides that the preemption
provision "shall not restrict the safety regulatory
authority of a State with respect to motor vehicles[.]"
49 U.S.C. § 14501(0(2)(A). But this narrow exception
does not encompass negligent hiring claims. A
negligent selection or negligent hiring claim is not a
safety regulation enacted as positive law; it is a
retrospective, incrementally changing standard of
common law developed by the courts. This makes it
challenging for DRI members and the brokers they
advise and defend to know or predict the law.
Moreover, even if a state law tort claim could be
considered an exercise of a state's police power, a
negligent selection claim against a broker is not "with
respect to motor vehicles" as specified in the plain
language of the safety exception. The Ninth Circuit's
interpretation effectively guts the act's general rule.
5

ARGUMENT
I. The Ninth Circuit's Decision Will Enable
Plaintiffs to Search For Remote DeepPocket Defendants Who Have Little or No
Ability to Prevent Trucking Accidents
As DRI members well know from their
experience advising and defending their broker
clients, the Ninth Circuit's decision will embolden
plaintiffs to reach further afield — beyond the motor
carriers primarily responsible for any motor vehicle
accident — in the search for deep pockets.
But motor carriers are in the best position to
prevent accidents by screening potential drivers and
adhering to safety standards. The broker's conduct in
engaging in its core services, that is, in selecting a
carrier and arranging for transportation for a
customer, does not constitute a direct — and hardly an
indirect — cause of any accident. A "broker" is a
company "other than a motor carrier" that "arrang[es]
for, transportation by motor carrier." 49 U.S.C. §
13102(2) (defining). Practically speaking, brokers "act
as intermediary between shippers and carriers. Their
work involves negotiating good shipping rates and
quick delivery times with transportation companies."
Freight Broker Training: Guide to Coordinating
Commercial Transport, by A.S. Brar — 2018 by
TruckFreighter.com. Other duties of a broker are:
coordinating and planning delivery and pickup schedules between carriers and shippers
managing dispatch schedules

6

monitoring and updating real-time shipment
statuses to customers
efficiently organize multiple deliveries
discussing and negotiating price agreements
with different carriers
Clement Harrison, Freight Broker and Trucking
Business Start-Up Guide 2021-2022. Generally
speaking, then, a broker is remote from the actual
driver and is not involved in the hiring of drivers nor
setting the driver's route. In short, a broker is the
"industry's middleman," whose role is to link trucking
companies and shippers. Id.
Indeed, Congress recognized that the motor
carrier is the primarily responsible party because,
under 49 U.S.C. § 13906(a)(1), a carrier may be
registered with the Secretary of the Treasury, and
may operate motor vehicles, only if it has liability
insurance adequate to cover judgments against the
carrier for bodily injury or death "resulting from the
negligent operation, maintenance, or use of motor
vehicles, or for loss or damage to property ... or both."
See also 49 C.F.R. § 387.7. Tellingly, there is no such
liability insurance requirement for brokers; they need
only demonstrate financial security. 49 U.S.C. §
13906(b). See Creagan v. Wal-Mart Transp., LLC, 354
F. Supp. 3d 808, 814 (N.D. Ohio 2018) (noting absence
of insurance requirement for brokers and concluding
that "[n]ot only does this affirmatively establish that
a motor carrier may be liable for these types
negligence actions, but also the omission of the same
language with respect to broker evinces
Congressional intent that brokers not be liable for
7

this conduct."); Ying Ye v. Glob. Sunrise, Inc., No.
1:18-CV-01961, 2020 WL 1042047, at *4 (N.D. Ill.
Mar. 4, 2020) (finding negligent selection claim
preempted, but noting that plaintiffs are not without
a remedy because, given the insurance requirement
for motor carriers, in addition to the safety exception,
"Congress intended that a motor carrier... may be
liable for personal-injury negligence actions despite
the FAAAA's preemption provision.")
The applicable minimum amount of liability
insurance for motor carriers is $750,000, 49 C.F.R. §
387.9. While plaintiffs may not deem this amount to
be enough to properly compensate them after injuries
sustained in an accident, this amount is more than
enough for many accidents. And if it does not suffice,
the FMCSA may remedy the situation rather than for
plaintiffs to ask the courts to violate the statutory
framework by imposing liability on brokers simply
because they have deep pockets.
II. Congress Intended to Preempt States from
Imposing Additional Regulations On
Brokers
Respondent's negligent selection claim is one
that the FAAAA preempts and it does not otherwise
fall within the act's safety regulatory exception. As
several district courts have recognized, the Ninth
Circuit's contrary holding results in the exception
swallowing the rule, a rule intended to limit liability
for motor vehicle accidents to the carrier, the entity in
the best position to prevent them. The result subjects
brokers to increased costs and litigation.

8

Through 49 U.S.C. § 14501(c)(1), Congress set
forth the general rule that "rebccept as provided in
paragraphs (2) and (3), a State, political subdivision
of a State, or political authority of 2 or more States
may not enact or enforce a law, regulation, or other
provision having the force and effect of law related to
a price, route, or service of any ... broker ... with
respect to the transportation of property." As this
Court has instructed, the purpose of the FAAAA is to
prevent states from implementing various
requirements that result in "a patchwork of state
service-determining laws, rules, and regulations,"
because such a scenario "is inconsistent with
Congress' major legislative effort to leave such
decisions, where federally unregulated, to the
competitive marketplace." Rowe, 552 U.S. at 373.
The phrase "related to" in 49 U.S.C. §
14501(c)(1) "embraces state laws 'having a connection
with or reference to' ... 'rates, routes, or services,'
whether directly or indirectly." Dan's City Used Cars,
Inc. v. Pelkey, 569 U.S. 251, 260 (2013) (quoting
Rowe, 552 U.S. at 370). Notably, the Ninth Circuit's
opinion acknowledges that a negligent selection claim
against a broker is the sort of claim the FAAAA
intends to preempt because the "selection of motor
carriers is one of the core services of brokers." Pet.
App. at 10a. A broker, as distinct from a motor carrier,
"offers for sale, negotiates for, or holds itself out by
solicitation, advertisement, or otherwise as selling,
providing, or arranging for, transportation by motor
carrier for compensation." 49 U.S.C. § 13102(2).
Additionally, the fact that Congress has tasked
the Secretary of Transportation with maintaining
9

safety standards for motor carriers counsels against
allowing negligent selection claims and imposing a
heightened standard of care for brokers — again, the
entity farthest removed from any accident — when
selecting a motor carrier. The Secretary registers
motor carriers willing to comply with its regulations,
39 U.S.C. § 13092, and is charged with determining
"whether an owner or operator is fit to operate safely
commercial motor vehicles, utilizing among other
things the accident record of an owner or operator
operating in interstate commerce and the accident
record and safety inspection record of such owner or
operator[.]" 49 U.S.C. § 31144 (a)(2). The Secretary
must also "periodically update such safety fitness
determinations"; "make such final safety fitness
determinations readily available to the public"; and
"prescribe by regulation penalties for violations of this
section[.]" Id., §§(a)(2)- (4).
These directives are implemented by the
FMCSA, which administers "procedures to determine
the safety fitness of motor carriers, to assign safety
ratings, to direct motor carriers to take remedial
action when required, and to prohibit motor carriers
receiving a safety rating of 'unsatisfactory' from
operating a [commercial motor vehicle]." See 49
C.F.R. § 385.1(a). A satisfactory safety rating "is
based on the degree of compliance with the safety
fitness standard for motor carriers," set forth in 49
C.F.R. § 385.5. "To meet the safety fitness standard,
the motor carrier must demonstrate it has adequate
safety management controls in place, which function
effectively to ensure acceptable compliance with
applicable safety requirements" to reduce several
risks, including, among others, those associated with
10

unqualified drivers, the use of unsafe vehicles, and
failure to maintain accident records. 49 C.F.R. §
385.5.
Additionally, the FMCSA is responsible for
considering several factors to determine a carrier's
safety rating. 49 C.F.R. § 385.9. The factors include
"faidequacy of safety management controls,"
"Mrequency and severity of driver/vehicle regulatory
violations," and "Ifirequency of accidents." See 49
C.F.R. § 385.7, 385.9. Notably, "a motor carrier rated
`unsatisfactory' is prohibited from operating a CMV."
49 C.F.R. § 385.13(a).
This statutory framework thus contemplates
that brokers will rely on the federal agency's ratings
so that brokers can focus on properly providing their
core services of connecting businesses and arranging
for transportation. Extending to brokers a duty to
independently evaluate carriers —requiring the
broker to replicate the steps taken by the agency or,
more likely, go beyond those steps — adds a layer of
unnecessary costs to the system. As the Ying Ye court
explained, "to avoid liability for a negligent hiring
claim ... brokers would need to examine each
prospective motor carrier's safety history and
determine whether any prior issues or violations
would be permissible under the common law of one or
more states. Enforcing such a claim would have a
significant economic impact on ...broker services."
2020 WL 1042047, at *3. See also Krauss v. IRIS
USA, Inc., No. CV 17-778, 2018 WL 2063839, at *5
(E.D. Pa. May 3, 2018) (where plaintiffs alleged the
broker should employ a "heightened and elaborate"
process of selecting carriers, the court held that such
11

a process would "necessarily impact directly upon [the
broker's] services and pricing."); Volkova v. C.H.
Robinson Co., No. 16 C 1883, 2018 WL 741441, at *3
(N.D. Ill. Feb. 7, 2018) (recognizing that the
enforcement of a negligent hiring claim against a
broker "would have a significant economic impact on
the services [the broker] provides....").
The difficulty is exacerbated because motor
carriers tend to be small businesses. According to the
American Trucking Association, as of April 2020,
91.3% of motor carriers operate 6 or fewer trucks and
97.4% operate fewer than 20 trucks. See
https://www.trucking.org/economics-and-industrydata. Indeed, the vast majority of trucking companies
have a fleet of just one or two trucks, see
https://ailmcsa.dot.gov/RegistrationStatistics/Custo
mReports.aspx. Accordingly, brokers would need to
research and evaluate a large number of carriers on
an ongoing basis, replicating the regulatory
evaluation that already exists, but must do so without
the information necessary to make a proper
assessment, such as individual driver's records,
disciplinary records, or drug test results.
Indeed, the district court here correctly
reasoned that, to avoid liability for a claim of
negligent selection, "a broker would consistently need
to inspect each motor carrier's background to find any
concerning 'red flags,' beyond what appears to be
currently required in the marketplace...." Pl. App. at
35a. The regulatory effect would be "particularly
economic, threatening to replace market forces,
because, as a matter of commonsense, the level of
service brokers provide directly impacts the amount
12

brokers charge for providing their service." Id.
Increased litigation resulting from the Ninth Circuit's
ruling and other district court decisions will also
obviously contribute to the increase in costs.
DRI members are particularly attuned to the
challenges of defending brokers where plaintiffs seek
to impose a heightened standard of care. As DRI
members have explained, in such negligent selection
cases, plaintiffs often argue that brokers should have
gone beyond the industry standards of obtaining a
copy of the carrier's operating authority, its insurance
certificate, and verifying the carrier's safety rating
kept by the Department of Transportation and the
FMCSA. Instead, plaintiffs' experts have argued that
brokers should use information from the FMCSA's
website "to determine a carrier's safety record
independently before hiring one." Jerry J. Sallings
and Courtney C. McLarty, Three Approaches The
Front Line in the Defense of Broker Liability Claims,
56 No. 12 DRI For Def. 60 (2014). But, as Petitioner
has also pointed out in its Ninth Circuit briefing,
under the Fixing America's Surface Transportation
Act, Pub. L. 114-94, 129 Stat. 1312 (2015), FMCSA
was required to remove certain information from its
website, and further, unless a carrier has an
unsatisfactory rating, it is authorized to operate on
the nation's roadways. (Pl. Brief, pgs. 9-10). Thus, the
information available to the broker is less than what
the regulatory agencies are able to obtain.
Once allowed to bring such claims, plaintiffs
will not feel the need to confine their arguments
regarding duty to the parameters of federal
regulations. Allowing a jury to hold a broker to a more
13

stringent standard of care that requires actions
beyond consulting safety ratings and other
information available from the Department of
Transportation and the FMCSA renders such actions
ripe for use of the reptile theory and similar
"community safety" arguments. As one court has
explained, "[t]he term 'reptile theory' refers to a book
advancing a trial tactic in which attorneys appeal to
jurors' reptile brain,' by appealing to their fear,
anger, and desire for personal safety." Jackson v. Low
Constr. Grp., LLC, No. 2:19-CV-130-KS-MTP, 2021
WL 1030995, at *2 (S.D. Miss. Mar. 17, 2021).
References to "personal safety," "community safety,"
"conscience of the community," "danger to the
community," and other arguments are intended "to
provoke the jury to render a decision based on their
emotions and sense of self-preservation, rather than
the evidence admitted at trial." Id. Some courts have
acknowledged that these types of argument "serve no
proper purpose and carry the potential of substantial
injustice when invoked against outsiders." Id. (citing
Westbrook v. Gen. Tire & Rubber Co., 754 F.2d 1233,
1238-39 (5th Cir. 1985)). See also Kisner v. State
Farm Fire & Cas. Co., No. 5:19-CV-194, 2020 WL
6947902, at *1 (N.D.W. Va. Oct. 28, 2020) ("A 'reptile'
argument is an appeal to emotion where a plaintiff
argues a defendant's conduct is a threat to personal
safety or community safety."). With the benefit of
hindsight, Plaintiffs' lawyers can easily find some
other step that a broker could have taken to have
avoided the particular accident and can also inflame
the jury with claims for punitive damages.
In sum, it is all too easy for plaintiffs now to
argue that a broker should go beyond determining
14

whether the relevant federal agency has vetted a
carrier's safety and allowed it to operate and instead
be required to meet to all manner of additional
requirements. If the Ninth Circuit's decision is
allowed to stand, DRI members must advise their
broker clients regarding 50 different common law
negligence standards, any combination of which may
be applicable to any given delivery route. The
challenge is that what is reasonable conduct on the
part of a broker in selecting a carrier in one
jurisdiction could subject it to liability in another. In
addition, jurors will look backward using after-thefact knowledge about what information became
available in litigation to hold brokers accountable
although the information may not have been
available to them at all, or only available at an
enormous increased cost.
DRI urges this Court to grant certiorari and
reverse the Ninth Circuit's decision so that DRI
members' broker clients are not subjected to "a
patchwork of state service-determining laws, rules,
and regulations," in contravention of the purpose of
the FAAAA. Rowe, 552 U.S. at 373.
III. The Narrow Exception for State Safety
Regulations Does Not Encompass Negligent
Hiring Claims
Despite recognizing that a negligent selection
claim is one that the act preempts, the Ninth Circuit
held that the claim falls within the safety regulatory
exception, which provides that the preemption
provision "shall not restrict the safety regulatory
authority of a State with respect to motor vehicles[.]"
49 U.S.C. § 14501(c)(2)(A). This Court has explained
15

that "Congress' clear purpose in § 14501(c)(2)(A) is to
ensure that its preemption of States' economic
authority over motor carriers of property, §
14501(c)(1), 'not restrict' the preexisting and
traditional state police power over safety." City of
Columbus v. Ours Garage & Wrecker Serv., Inc., 536
U.S. 424, 439 (2002).
As Petitioner persuasively argues, "the phrase
`regulatory authority of a State' refers to positive-law
enactments promulgated and enforced by state or
local officials," it does not include the common law as
to tort claims developed by state courts. Pet., p. 13,
and see pgs. 13-18. Stated another way, a negligent
selection or negligent hiring claim is not a safety
regulation enacted as positive law; it is a
retrospective, incrementally changing standard of
common law developed by the courts. This makes it
challenging for DRI members and the brokers they
advise and defend to know or predict the law.
Moreover, as Petitioner further contends (see
Pet., pgs. 18-19), and several district courts have held,
even if a state law tort claim could be considered an
exercise of a state's police power, a negligent selection
claim against a broker is not "with respect to motor
vehicles" as specified in the plain language of the
safety exception. The Ninth Circuit's interpretation
effectively guts the act's general rule.
"In statutory interpretation disputes, a court's
proper starting point lies in a careful examination of
the ordinary meaning and structure of the law itself."
Food Mktg. Inst. v. Argus Leader Media, 139 S. Ct.
2356, 2364 (2019). In Loyd v. Salazar, 416 F. Supp. 3d
1290 (W.D. Okla. 2019), the district court adhered to
16

this rule of statutory construction when it considered
the safety exception's plain language and the
structure of the act. The court rejected the plaintiffs
assertion that the exception should encompass a
negligent brokering claim, explaining:
In the Courts view, Plaintiffs proposal is
contrary to Congress' intent in providing
specific exceptions to federal preemption; such
a broad reading would allow the exception to
swallow the rule of preemption related to
brokers' services.
Congress expressly limited the exception by
specifying that protected safety regulations
are ones "with respect to motor vehicles." The
phrase "with respect to" signals that an
exempt regulation must concern motor
vehicles, and narrows the scope of the
-exception.... "The term 'motor vehicle' means
a vehicle, machine, tractor, trailer, or
semitrailer propelled or drawn by mechanical
power and . used on a highway in
transportation ...." See 49 U.S.C. § 13102(16).
Assuming that a common law negligence claim
can be considered a safety regulation with
respect to motor vehicles, a negligent hiring or
brokering claim — even one alleging that a
broker unreasonably selected an unsafe motor
carrier — only indirectly concerns the safety of
the motor vehicles owned or operated by the
motor carrier.
Id. at 1298-99.

17

The Ninth Circuit's contrary interpretation is
thus "an unwarranted extension of the exception to
encompass a safety regulation concerning motor
carriers rather than one concerning motor vehicles."
Id. at 300. See also Creagan, 354 F. Supp. at 814
(because a "negligent hiring claim seeks to impose a
duty on the service of the broker rather than regulate
motor vehicles" the claim "is not within the safety
regulatory authority of the state and the exception
does not apply"); Ying Ye, 2020 WL 1042047, at *3
(N.D. Ill. Mar. 4, 2020) (even if a negligent hiring
claim "can be considered a safety regulation, that
claim has an attenuated connection to motor vehicles.
[A broker] is not alleged to directly own, operate, or
maintain motor vehicles.")2 This Court should,
therefore, grant certiorari and reverse the Ninth
Circuit's decision.

2 The district court in this case also recognized that "§
14501(c)(2)(A)'s language is silent regarding broker services.
Compare § 14501(c)(1) with § 14501(c)(2)(A). This fact further
counsels against reading the exception in § 14501(0(2)(A) to
extend to broker services not clearly within Nevada's 'safety
regulatory authority' with respect to motor vehicle."' Pet. App.
at 37a.

18

CONCLUSION
Amicus Curiae DRI—The Voice of the Defense
Bar respectfully requests this Court reverse the
decision of the Ninth Circuit Court of Appeals.
Respectfully submitted,
MARY MASSARON
Counsel of Record

EMILY COUGHLIN
DRI—THE VOICE OF THE
JOSEPHINE DELORENZO
DEFENSE BAR
PLUNKETT COONEY
222 South Riverside
38505 'Woodward Avenue
Plaza Suite 1870
Suite 100
Chicago, IL 60606
Bloomfield Hills, MI 48304 (312)795-1101
ecoughlin@coughlinbetke.com
(313) 983-4801

mmassaron@plunkettcooney.com
jdelorenzogplunkettcooney.corn

Counsel for Amicus Curiae—DRI—
The Voice of the Defense Bar

19

